            valuation


             eport

         GROUND CONTROL APPROACH-2000 RADAR SYSTEM
                 TEST PLAN AND TEST RESULTS


Report No. D-2000-163                          July 20, 2000




             Office of the Inspector General
                 Department of Defense
Additional Copies

To obtain additional copies of this evaluation report, contact the Secondary Reports
Distribution Unit of the Audit Followup and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
General, DoD, Home Page at: www.dodig.osd.mil.

Suggestions for Future Evaluations

To suggest ideas for or to request future audits, contact the Audit Followup and
Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
(703) 604-8932. Ideas and requests can also be mailed to:

                  OAIG-AUD (ATTN: AFTS Evaluation Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

Defense Hotline

To report fraud, waste, or abuse, contact the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
identity of each writer and caller is fully protected.




Acronyms

AFB                 Air Force Base
AMC                 Air Mobility Command
ASR                 Airport Surveillance Radar
CLIN                Contract Line Item Number
EMI                 Electromagnetic Interference
EMC                 Electromagnetic Compatibility
FAT                 Factory Acceptance Test
FOC                 Full Operational Capability
GCA-2000            Ground Control Approach-2000
IOC                 Initial Operational Capability
OUE                 Operational Utility Evaluation
PAR                 Precision Approach Radar
                    Office of the Inspector General, DoD

Report No. D-2000-163                                                      July 20, 2000
 (Project No. 8PT-0037)


          Ground Control Approach-2000 Radar System
                  Test Plan and Test Results

                          Executive Summary

Introduction. This report is a review of the test plans and test results of the
Ground Control Approach-2000 (GCA-2000) radar system. On October 24, 1997,
the Air Force Materiel Command, Electronic Systems Center, awarded a contract to
ITT Gilfillan for three GCA-2000 radar systems. The firm-fixed-price contract
with an estimated value of $9.6 million was awarded on a sole-source basis under
the authority of Federal Acquisition Regulation 6.302-2, “Unusual and Compelling
Urgency.” The first system was delivered 2 months late in October 1998. An
operational utility evaluation followed the delivery of the first system. The
evaluation revealed 85 deficiencies. The deficiencies were corrected with the
exception of three reliability deficiencies, which were being worked at the time of
this report.

Objectives. The overall objective was to analyze the completeness of the
GCA-2000 radar system test plans and test results.

Results. The Air Force test planning for the GCA-2000 radar system was
incomplete and needed improvement. As a result, the extent to which controllers
could meet the multiple target requirement with the GCA-2000 radar was unknown.

Tests of the GCA-2000 radar system showed significant deficiencies in the Airport
Surveillance Radar function, which caused postponement of Federal Aviation
Administration certification. As a result, the October 1998 delivery justification
requirement for the GCA-2000 radar system was not met. At the time of this
report, the system had passed the Federal Aviation Administration flight check.

Summary of Recommendations. We recommend that the Program Director,
Global Air Traffic Operations Mobility Command and Control System Program
Office, and the Commander, Air Mobility Command, prepare test plans to
demonstrate the extent to which controllers can meet the multiple target requirement
with the GCA-2000 radar system as shown in the requirements documents.

We recommend, for future programs, that the Program Director, Global Air Traffic
Operations Mobility Command and Control System Program Office, include a
developmental effort for nondevelopmental items when system functions are not
commercially available.
Management Comments. The Air Force agreed to establish a test plan to further
demonstrate the capability for air traffic controllers to control 15 aircraft using the
airport surveillance radar while simultaneously controlling 2 aircraft using the precision
approach radar. Air Mobility Command’s 33rd Flight Test Squadron will develop the
test plan. The Air Force also stated that it had already determined the GCA-2000
Radar system is suitable for its intended purpose—first-in, expeditionary air traffic
control. Further, the Air Force concurred with including a developmental effort for
nondevelopmental items when system functions are not commercially available.

Evaluation Response. The additional tests agreed to by the Air Force meet the intent
of our recommendation.




                                            ii
                                                                         July 20, 2000

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
               (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Evaluation of the Ground Control Approach-2000 Radar System Test Plan
         and Test Results (Report No. D-2000-163)


       We are providing this report for your information and use. We considered
management comments on a draft of this report when preparing the final report. The
Air Force comments were fully responsive.

       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, additional comments are not
required.

       We appreciate the courtesies extended to the audit staff. For additional
information on this report, please contact Mr. Kenneth H. Stavenjord, at
(703) 604-8952 (DSN 664-8952) (kstavenjord@dodig.osd.mil) or Mr. Chandra P.
Sankhla, at (703) 604-8917 (DSN 664-8917) (csankhla@dodig.osd.mil). See
Appendix B for the report distribution. The evaluation team members are listed inside
the back cover.




                                David K. Steensma
                         Deputy Assistant Inspector General
                                   for Auditing
Table of Contents

Executive Summary                                  i

Introduction
     Background                                    1
     Objectives                                    2

Findings
     A. Test Planning                              3
     B. Test Results                               9

Appendixes
     A. Evaluation Process
          Scope                                   15
          Methodology                             15
          Prior Coverage                          16
     B. Report Distribution                       17

Management Comments

           Department of the Air Force Comments   19
Background

    Statement of Objectives for the Air Mobility Command (AMC) Ground
    Control Approach-2000 (GCA-2000) Radar System. On March 12, 1997, the
    AMC Statement of Objectives was approved to allow the Air Force to obtain four
    GCA–2000 radar systems in a mobile configuration that would meet the following
    objectives:

         •   suitable for use by AMC operators for control, separation, sequencing,
             and precision landing services in austere (lacking or with limited
             navigational equipment) environment;

         •   easily deployable (requiring a minimum of personnel for setup and
             minimal additional support equipment); and

         •   modular design to support “first-in” (single C-130 airlift and
             autonomous operation) and “sustainment” mission roles.

         •   the Air Force statement of objectives specified delivery of the first
             system no later than 10 months from the start of the contract and that the
             system would be subjected to a 2-month test defined by the AMC and
             Air Force.

    System Requirements Document for GCA-2000 Radar System. The system
    requirements described the GCA-2000 system as an autonomous, self-contained
    radar system that could:

         •   be rapidly deployed and set up and be operational during contingency
             situations requiring instrument flight rules, approaches, and precision
             landings;

         •   provide services to both commercial and military aircraft at remote,
             temporary, austere, and unimproved airfields; and

         •   provide controllers with the capacity to conduct a minimum of 15 targets
             in the airport surveillance radar (ASR) mode, while simultaneously
             controlling at least 2 targets in the precision approach radar (PAR)
             mode.

    Air Traffic Control and Landing Systems Program Management Directive.
    On June 2, 1997, the Assistant Secretary of the Air Force (Acquisition), Mission
    Area Director, Information Dominance issued “Program Management
    Directive 2062(15)/35114F/35137F (Directive 2062) for Air Traffic Control and

                                         1
     Landing Systems.” The Program Management Directive, Appendix K, discusses
     the GCA-2000 radar system and states that the GCA-2000 radar system was
     selected to meet the requirements for “first-in,” rapidly deployable, and short-
     term air traffic control and sustainment capability. Directive 2062 also stated that
     the GCA-2000 radar system would provide a near-term solution of the AMC
     requirement to support major regional conflicts, and contingency operation
     requirements in the FY 1998 through FY 2003 Defense Planning Guidance. In
     addition, the GCA-2000 radar system was to:

          •   be deployable on one C-130 aircraft,

          •   be set up in under 3 hours,

          •   provide precision approach guidance to multiple runways and to
              changing runways in 1 minute or less, and

          •   be deployable and operable with two controller personnel and one
              maintainer.

     Contract Award. On October 24, 1997, the Air Force Materiel Command,
     Electronic Systems Center, awarded to ITT Gilfillan the contract for three GCA-
     2000 radar systems. The firm-fixed-price contract was awarded on a sole-source
     basis under the authority of Federal Acquisition Regulation 6.302-2, “Unusual
     and Compelling Urgency,” with an estimated value of $9.6 million.


Objectives
     The overall objective was to analyze the completeness of the GCA-2000 radar
     system test plans and test results.




                                            2
            A. Test Planning
            The Air Force test planning was incomplete and needed improvement.
            This occurred because the Air Force did not include the multiple target
            requirement in the test plans. As a result, the extent to which controllers
            could meet the multiple target requirement with the GCA-2000 radar was
            unknown.


System Selection
     The multiple target requirement was a key to system selection, along with other
     technical requirements such as radar performance, maintainability, and
     transportability in a single aircraft. A May 14, 1996, MITRE Corporation, point
     paper compared and discussed the applicability of alternative systems and
     concluded that the Air Traffic Navigation, Integration, and Coordination System
     that was being developed for the Army, for example, provided a ground-control
     approach capability that was limited by the number of aircraft that two controller
     positions could handle. The limit on the multiple target capability meant that the
     Air Traffic Navigation, Integration, and Coordination System could not service
     the complex mission without interfacing multiple shelters, but the GCA-2000
     radar met the multiple target capability requirement, provided three controller
     positions, and was available as a nondevelopmental item. Therefore, the
     significance of the multiple target requirement was apparent early in the program
     when alternative systems were evaluated.


Multiple Target Requirement
     AMC specified that it required a multiple target capability radar. The combat
     mission needs statement states: “Integral to AMC’s requirement is a rapidly
     deployable airport surveillance radar/precision approach radar (ASR/PAR) system
     to support large-scale 24-hour operations in an austere adverse weather
     environment” and the system requirements document states: “The automation
     system must provide controllers the capability to control a minimum of 15 targets
     in the ASR mode while simultaneously controlling at least two targets at other
     positions in the PAR mode ….”

     The system specifications for PAR Target Capacity and the ASR Target Capacity
     state,

                The PAR shall be capable of extracting, tracking and displaying plots
                for up to 50 aircraft within the specified azimuth coverage and for up to
                22 aircraft within the specified elevation coverage. . . . The ASR shall
                be capable of extracting, tracking and displaying plots for up to
                250 aircraft within the specified azimuth coverage.



                                               3
    The November 1998 approved Operational Utility Evaluation (OUE) test plan,
    Section II OUE Outline, states, “COI-1 [Critical Operational Issue 1] Does GCA-
    2000 allow controllers to provide effective traffic control services to multiple
    aircraft?”

    At a meeting of the test planning working group held at Eglin Air Force Base
    (AFB), Florida, on February 18-19, 1998, the first critical operational issue
    discussed was whether the GCA-2000 radar system would provide sequencing,
    separation, and flow control to multiple aircraft.

    The system performance characteristics for the combined mode of the GCA-2000
    radar system described some of the ASR function performance capabilities as
    follows:

           •   In the combined mode, the azimuth coverage of 360 degrees shall be
               provided by a combination of mechanical rotation of the azimuth
               antenna and electronic scan of the azimuth antenna. PAR azimuth
               tracking for up to two designated PAR azimuth targets shall be
               provided at the system level.

           •   In the combined mode, ASR blanking sectors shall not be initiated in
               the 30-degree azimuth region corresponding to the PAR azimuth
               coverage sector of 30 degrees.

           •   In the combined mode, ASR extracted plots in the 30-degree ASR
               azimuth region corresponding to the PAR azimuth coverage sector of
               30 degrees shall be forwarded for display at the PAR display controller
               position. Detection, accuracy, resolution, and update rate of these
               plots shall be specified in paragraph 3.3.2.1 ASR Function
               Performance and subparagraphs thereto.

           •   In the combined mode, ASR extracted weather data in the 30-degree
               ASR azimuth region corresponding to the PAR azimuth coverage
               sector of 30 degrees shall be forwarded for display at the PAR display
               controller position.


Test Planning Working Group
    After the Air Force decided to buy a commercial off-the-shelf radar, a test
    planning working group was formed that included representatives from the
    Electronic System Command, AMC, the Project Management Office, the testing
    community, and the MITRE Corporation. The planning group met three times
    from January through April 1998 and planned tests that included loading and
    transporting the GCA-2000 radar system in a C-130 aircraft; environmental
    testing in adverse weather conditions, electromagnetic interference (EMI), and

                                        4
     electromagnetic compatibility (EMC). Those tests were to be followed by
     21 days of operational testing, which was scheduled to start on August 18, 1998.
     But the actual testing did not start as scheduled. The Environmental tests were
     conducted at Eglin AFB from November 9 to December 3, 1998 and Operational
     tests took place at Dover AFB from January 5, 1999 to May 25, 1999.

     The operational utility evaluation planning issues were revisited and discussed
     during the second planning group meeting held at Eglin AFB, on February 18 and
     19, 1998. The planning group agreed that the GCA-2000 radar acquisition was a
     “Fast Track” commercial off-the-shelf acquisition and before AMC would accept
     the system from the contractor, the GCA-2000 radar system must pass
     specification testing, Federal Aviation Administration flight inspection, and be
     loaded and transported successfully on a C-130 aircraft. The Air Force would
     conduct the operational utility evaluation testing in two parts. Part 1 would be
     conducted in electromagnetic and environmental chambers, which simulated the
     operational environment with operators and maintainers exercising the system.
     Part 2 would be conducted at an airfield in a deployed scenario to demonstrate
     controlling of multiple aircraft targets and multiple aircraft variations.

     The third planning group meeting was held at Dover AFB, Delaware, on
     April 28-29, 1998, where open action items including flight certification, member
     responsibilities during testing, operational utility evaluation manning
     requirements, and other issues were discussed.


Operational Utility Evaluation Test Plan and Test Schedule
     In November 1998, a test plan prepared by the AMC Air Mobility Warfare
     Center, 33rd Flight Test Squadron, Fort Dix, New Jersey, provided the
     operational utility evaluation outline based on two critical operational issues:

            •   Does GCA-2000 allow controllers to provide effective air traffic
                control services to multiple aircraft?

            •   Is GCA-2000 suitable for worldwide deployment?

     The test plan provided details for environmental tests including methodology,
     procedures, evaluation methods, and survivability assessment, but it did not
     describe the procedures for operational testing.

     An accompanying GCA-2000 test schedule dated November 6, 1998, listed
     3 days of electromagnetic interference testing (November 11-13, 1998), 24 days
     of environmental testing (November 14 to December 7, 1998), and 13 days of
     flight testing (December 10-22, 1998). The test schedule also included tracking a
     minimum of 100 aircraft approaches and the required Federal Aviation


                                           5
     Administration certification testing. Loading and transporting the system in a
     C-130 aircraft and ground mobility testing were not included in the test schedule.


Multiple Target Testing
     System Acceptance Test. The contractor performed a system acceptance test
     October 5-23, 1998, witnessed by Government representatives, where the
     multiple target requirement was demonstrated and verified only by simulation.
     The test was performed using internally generated test targets inserted ahead of
     the plot extractor. The contractor operator verified that 50 targets were
     extracted, tracked, and presented in the PAR azimuth display. Similarly, the
     operator verified 22 targets in the elevation display. The tests did not
     demonstrate that the radar system could provide controllers with the capability to
     control a minimum of 15 targets in the ASR mode and simultaneously control at
     least 2 targets at other positions in the PAR mode.

     Operational Utility Evaluation. The multiple target requirement was not
     included in the GCA-2000 radar operational utility evaluation testing plan. On
     April 22, 1999, during the system operational testing, the test manager at Dover
     AFB said that the multiple target requirement could not be tested because of a
     limited number of available aircraft. As a result, a critical performance
     characteristic used to justify the acquisition of the commercial off-the-shelf system
     was not tested. If the multiple target requirement is not demonstrated before the
     system is fielded, the system may have to perform a requirement that has not been
     demonstrated.

     The project manager explained that the GCA-2000 radar system could not be used
     to control targets until it was certified by the Federal Aviation Administration.
     Therefore, the multiple target demonstration could not be performed until the end
     of the test program. Instead, the project manager proposed to demonstrate the
     ability of three Air Traffic Control personnel to monitor as many targets of
     opportunity as possible on the ASR display and simultaneously use the PAR
     displays to control two aircraft on final approach, as long as it was understood
     that monitoring did not involve control instructions and was restricted to watching
     potential traffic conflictions and providing additional services as workload
     permitted. However, the project manager stated that the limited ASR coverage
     available (up to 25 miles) would probably be too small to allow 15 targets. The
     project manager’s statement that it was not operationally feasible to assign 15
     aircraft to fly radials within the ASR range to accomplish the task brought into
     question the capability of the GCA-2000 radar system to meet the requirement.




                                           6
Post Retrofit Test Planning
     The Air Force planned additional tests after the contractor corrected deficiencies
     revealed by the GCA-2000 radar system tests. The Air Force also planned a post
     retrofit test to ensure that the fixes were adequate. The operational testing
     deficiencies included the ASR never being fully functional, target dropping, target
     splitting, false built-in-testing indications, and numerous software and safety
     problems.

     On June 15, 1999, the contractor submitted a test plan to correct the deficiencies
     and included a description of the tests to be performed, the methodology, and the
     criteria to verify resolution of the deficiencies. All tests were performed at the
     fully integrated system level, at Van Nuys, California, and at a nearby airport, to
     ensure that the system met the operational system specifications and that the
     operational utility evaluation deficiencies were corrected. On July 11, 1999, the
     contractor submitted a plan to validate 23 deficiency reports and to correct
     environmental deficiencies. The proposed verification would be conducted using
     manufacturer’s data sheets, inspection, analysis, demonstration and test as well as
     test data independently acquired by ITT Gilfillan on the unit in question.

     Following the contractor’s tests, the Air Force was to perform Federal Aviation
     Administration readiness tests and flight tests to receive certification.


Conclusion
     The ability to control multiple targets simultaneously in the ASR and PAR modes
     was a critical Air Force requirement that the Air Force attempted to meet by
     purchasing a commercial off-the-shelf radar to fulfill. However, the Air Force
     operational testing program did not include demonstration of the multiple target
     requirement. At the time of this report, the extent to which the GCA-2000 radar
     met the multiple target requirement was unknown. The extent to which the
     system is capable of meeting the multiple target requirement needs to be
     demonstrated before the system is released to the user.


Recommendation and Management Comments, and
  Evaluation Response
     A. We recommend that the Program Director, Global Air Traffic
     Operations Mobility Command and Control System Program Office, and the
     Commander, Air Mobility Command, prepare test plans to demonstrate the
     extent to which controllers can meet the multiple target requirement with the
     GCA-2000 radar system as shown in the requirements documents.



                                          7
Management Comments. The Air Force partially concurred with the
recommendation to establish a test plan to further demonstrate the capability for
air traffic controllers to control 15 aircraft using the ASR while simultaneously
controlling 2 aircraft using the PAR. However, the Air Force stated that the
system is deemed suitable for its intended purpose—“first-in”, expeditionary air
traffic control. The Air Force stated that rigorous simulation testing
demonstrated the ability of the system to simultaneously acquire and track
15 ASR targets and 2 PAR targets. Furthermore, an operational suitability
evaluation, conducted by the air traffic controllers using live traffic, confirmed
the system’s utility.

Evaluation Response. Although the Air Force partially concurred, the additional
tests agreed to by the Air Force meet the intent of our recommendation.




                                     8
            B. Test Results
            Tests of the GCA-2000 radar system showed significant deficiencies in
            the ASR function, which caused postponement of the Federal Aviation
            Administration certification. The ASR function was not fully developed
            and was not identified as requiring development, unlike the secondary
            surveillance radar. As a result, the stringent delivery requirement of
            October 1998 for the GCA-2000 radar system was not met. At the time
            of the report, the system had passed the Federal Aviation Administration
            flight check.


Acquisition Strategy
     On September 15, 1997, in a briefing to the Air Force Program Executive
     Officer for Airlift and Trainers, the Program Director, Global Air Traffic
     Operations, Mobility Command and Control System Program Office stated that
     the Air Mobility Contingency Precision Approach Capability combat mission
     needs statement established an unusual and compelling urgency for the
     GCA-2000 radar system. The combat mission needs statement stated, in
     part, “Initial Operational Capability is required no later than 30 OCT 97
     for the select core of 35 C-17’s.” The Program Director stated that DoD
     Regulation 5000.2-R, Section 3.3.1,“Sources,” dated May 15, 1996, allowed
     consideration of commercial and nondevelopmental items as a primary source of
     supply. Public Law 103-355, “The Federal Acquisition Streamlining Act of
     1994,” required:

            •   preference for the acquisition of commercial items by Federal
                agencies,

            •   prime contractors and subcontractors to incorporate commercial
                nondevelopmental items as components, and

            •   modification to the maximum extent practicable to ensure that the
                requirements were met by commercial and nondevelopmental items.

     The Program Director stated that the Air Traffic Navigation, Integration, and
     Coordination System was under development; that GCA-2000 radar met the
     system requirements document requirements and was a modified commercial
     off-the-shelf item that provided the earliest capability, October 1998 and
     recommended that, on receipt of congressional reprogramming, the Air Force
     should proceed with sole-source procurement under the authority of unusual and
     compelling urgency.




                                        9
Urgency Based Schedule

    AMC issued the combat mission needs statement for Air Mobility Contingency
    Precision Approach on November 14, 1996, which stated: “ . . . integral to
    AMC requirement is a rapidly deployable ASR/PAR system to support large
    scale 24-hour operations in an austere, adverse weather environment.”

    On March 12, 1997, the Commander, AMC, issued a statement of objectives
    for the GCA-2000 radar system that stated, “3.2 Schedule: It is the desire of
    AMC and the Air Force to accept the first article not later than 10 months from
    contract start. Delivery of units 2-4 will be delayed until completion of a
    2 month, USAF/AMC defined test of the first article . . .”

    On June 2, 1997, the Assistant Secretary of the Air Force issued a Program
    Management Directive 2062(15)/35114F/35137F) for the Air Traffic Control
    and Landing System. The Program Management Directive for AMC Ground
    Controlled Approach (GCA) radar (Appendix K) listed the following milestone
    dates and significant events:

           •   Factory Acceptance Test (FAT): Complete 10 months after
               contract date

           •   OUE: Complete 12 months after contract date

           •   Initial Operational Capability (IOC): 12 months after
               contract award

           •   Full Operational Capability (FOC): 15 months after
               contract award

    The contract was awarded to ITT Gilfillan on October 24, 1997, for three
    GCA-2000 radar systems, related data, spares, and training and technical
    manuals. Section B, Contract Line Item Number (CLIN) 0001AA, stated that
    the contractor shall deliver the first GCA-2000 10 months after contract award;
    CLIN 0002AA, stated that the second unit shall be delivered 1 month after the
    completion of the Government operational utility evaluation, and the third unit
    was to be delivered 1 month after unit two.

    The system acceptance tests were conducted at the contractor facility from
    October 5 to 22, 1998; the first system was delivered 2 months late on October
    28, 1998; an operational utility evaluation plan for the GCA-2000 radar was
    approved in November 1998; an accompanying test schedule listed EMI tests
    from November 11 to 13, 1998; environmental tests from November 14 to
    December 7, 1998; and flight tests from December 10 to 22, 1998.


                                       10
Airport Surveillance Radar Functionality

     Airport Surveillance Radar. Approach control radar is used to detect and
     display an aircraft’s position in the terminal area. ASR provides range and
     azimuth information but does not provide elevation data. ASR coverage can
     extend to 60 miles.

     Precision Approach Radar. The PAR equipment is operated by the Federal
     Aviation Administration or by the Services to detect and display azimuth,
     elevation, and range of aircraft on the final approach course to a runway. The
     PAR equipment is primarily used to conduct a precision instrument approach
     where the controller issues guidance instructions to the pilot based on the
     aircraft’s position in relation to the final approach course (azimuth), the
     glidepath (elevation), and the distance (range) from the touchdown point on the
     runway as displayed on the radar scope. In the GCA-2000 radar, the PAR
     range is up to 20 nautical miles in the clear sky with azimuth coverage of
     30 degrees.

     The acquisition strategy for a nondevelopmental item was justified because the
     GCA-2000 radar system was sold to Brazil; however, only the PAR portion of
     the system was sold commercially. The PAR azimuth antenna covers a
     30-degree sector by electronic scan at a minimum rate of once each second.
     The ASR is an extension of the PAR azimuth function and both use the same
     azimuth antenna. The ASR azimuth function covers a 360-degree sector by a
     combination of mechanical rotation of the azimuth antenna and electronic scan.
     The entire 360 - degree azimuth coverage is scanned at a minimum rate of once
     each second. The ASR range is up to 30 nautical miles with an altitude up to
     10,000 feet.

     The Air Force purchased the GCA-2000 radar system with PAR and ASR
     functionalities, but the lack of demonstrated ASR functionality was not
     identified and a development effort was not included in the acquisition strategy.
     During the system operational testing, numerous failures were observed in the
     ASR and combined modes. These failures may have occurred because the ASR
     function was not fully developed.

     In contrast to the ASR, the Air Force identified that the secondary surveillance
     radar, which is a back up radar for the ASR function, required development.
     On April 11, 1997, the Communications and Air Space Management System
     Program Office prepared a background paper on the GCA-2000 radar system
     that listed technical risks and modifications needed to support AMC
     requirements. The modifications included increased range, addition of
     secondary surveillance radar with a new antenna, a direct current motor, and a
     processor. The desired configuration would require 5 months to design.




                                         11
Testing

     With the exception of the multiple target requirement addressed in finding A,
     the GCA-2000 radar system was thoroughly tested during the system acceptance
     test and operational utility evaluation. The tests included environmental testing
     and field operational testing.

     System Acceptance Tests. The system acceptance tests were conducted by the
     contractor from October 5-23, 1998. The contractor validated 316 points in
     accordance with the system specifications by analysis, manufacture data sheets,
     inspections, demonstrations, and tests. All issues including testing were
     resolved before delivery of the first system on October 23, 1998. However,
     testing for the Federal Aviation Administration certification or air
     transportability were not performed before the GCA-2000 radar system was
     accepted.

     The contractor satisfied the system specification requirements for PAR Target
     capacity by simulating the system acceptance tests using internally generated test
     targets inserted ahead of the plot extractor. Fifty test targets were verified as
     being extracted, tracked, and presented in the PAR azimuth display. Similarly,
     22 targets were verified in the elevation display.

     The operational utility evaluation testing of the GCA-2000 radar system was
     planned and conducted in two phases by the AMC 46th Test Squadron and
     33rd Flight Test Squadron. Phase 1 focused on suitability issues such as initial
     assessment of training, human factors, and environmental and electromagnetic
     interference tests. Phase 2 evaluated the effectiveness and suitability of the
     GCA-2000 radar system and focused on operational field testing, assessment of
     training, interoperability, and other suitability issues.

     Environmental Testing. The environmental testing included high and low
     temperatures, snow, ice, rain, sand, dust, set-ups, and inspections. The EMI
     tests and environmental tests were conducted in test chambers located at Eglin
     AFB.

     Several deficiencies were noted during the environmental testing: the failure of
     the shelter air conditioner and sensor, the shelter generator surge, the sensor
     antenna brake failure, the failure to attain operational status within 2 hours as
     required, the reduction in speed of secondary surveillance radar antenna from
     15 miles an hour to 5 miles a hour during the blowing sand test, SSR system
     failure during operational testing, and a cable failure from exposure to cold.
     Subsequent to the Phase 1 Environmental testing, 23 deficiency reports were
     prepared.



                                         12
    Field Operational Testing. Phase 2 of the operational utility evaluation field
    operational testing started on January 5, 1999, at Dover AFB, but stopped on
    January 13, 1999, when major technical problems were discovered. On January
    20, 1999, the Inspector General, DoD, evaluation team visited Dover AFB, and
    the Test Manager provided a status briefing of the field operational testing. He
    said the test was suspended when the radar system failed to track large targets,
    and that the testing would resume after the contractor had fixed the large-target
    tracking and other problems. The Project Manager later informed the
    evaluation team that the problem of tracking large targets had been solved but
    additional serious software and hardware deficiencies, including target drop-off
    problem, had been discovered. The Project Manager informed the contractor
    that the system operational testing could not be completed until all the
    deficiencies were corrected. After the contractor fixed the problems, a 72-hour
    burn-in test was performed. At a test readiness review on April 22, 1999, the
    contractor and testers discussed the system status and decided to resume field
    operational testing on April 26, 1999. On May 10, 1999, the Project Manager
    informed the evaluation team that the ASR had again experienced target drop-off
    problems that could be attributed to software deficiencies and assured that the
    system would be fixed when it was flown to Van Nuys, California, in late May
    1999. The Project Manager also stated that 80 approaches in ASR mode were
    observed and 20 approaches in the PAR mode were controlled, although not
    simultaneously and the contractor was correcting the deficiencies for the post-
    retrofit factory acceptance tests.


Conclusion
    The Air Force established an unusual and compelling urgency and purchased a
    sole-source nondevelopmental items system that would meet the system
    requirements and provide the earliest GCA-2000 radar capability. The Air
    Force identified the lack of demonstrated functionality of the secondary
    surveillance radar and included a development effort in the acquisition strategy.
    However, the lack of demonstrated ASR functionality was not identified and a
    development effort was not included in the acquisition strategy. During the field
    operational testing in January and again in April-May 1999, the radar repeatedly
    failed to perform in the ASR mode and was undergoing ASR developmental
    efforts to correct deficiencies. The critical initial operational capability date of
    October 1998 was not met.




                                        13
Recommendation and Management Comments

    We recommend, for future programs, that the Program Director, Global
    Air Traffic Operations Mobility Command and Control System Program
    Office include a developmental effort for nondevelopmental items when
    system functions are not commercially available.

    Management Comments. The Air Force concurred with the recommendation.




                                   14
Appendix A. Evaluation Process

Scope

    To accomplish the evaluation objective, we reviewed the adequacy of the test
    plan, environmental and operational test plans, and test procedures. We also
    reviewed the results of the system acceptance tests.


Methodology
    We conducted the evaluation from May 1998 through October 1999, in
    accordance with standards implemented by the Inspector General, DoD. We
    obtained and examined the minutes of three working group meetings, draft and
    final test plans, and the system acceptance test results performed by the
    contractor.

    Contacts During the Evaluation. We visited or contacted individuals or
    organizations within and outside the DoD. Further details are available on
    request.

    Use of Computer–Processed Data. We did not use computer-processed data to
    perform this evaluation.

    DoD-Wide Corporate-Level Performance and Results Act (GPRA)
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goals and subordinate performance goals,
    subordinate performance goals, and performance measures:

           •   Goal 1: Shape the international environment and respond to the full
               spectrum of crises by providing appropriately sized, positioned, and
               mobile forces. Performance Goal 1.3: Maintain the capability to
               move military forces from the United States to any location in the
               world in response to aggression, using a combination of airlift,
               sealift, and prepositioned equipment. (00-DoD-1.3)

           •   Goal 2: Prepare now for an uncertain future by pursuing a focused
               modernization effort that maintains United States qualitative
               superiority in key warfighting capabilities. Transform the force by
               exploiting the Revolution in Military Affairs, and reengineer the
               Department to achieve a 21st century infrastructure. Performance


                                       15
              Goal 2.4: Meet combat forces’ needs smarter and faster, with
              products and services that work better and cost less, by improving
              the efficiency of DoD acquisition processes. (00-DoD-2.4)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This provides coverage of the
    Defense Contract Management high-risk area.

    Management Control Program. Review of the management control program
    was not within the scope of this evaluation.


Prior Coverage
    Inspector General, DoD, Report No. 98-070, “Short-Term Precision Landing
    Capabilities for C-17 Aircraft,” February 11, 1998

    Inspector General, DoD, Report No. 97-219, “Lessons Learned From
    Acquisitions of Modified Commercial Items and Nondevelopmental Items,”
    September 23, 1997.




                                      16
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Deputy Under Secretary of Defense (Acquisition Reform)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Director, Defense Logistics Studies Information Exchange


Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy


Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center




                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       18
Air Force Comments




                19
20
Evaluation Team Members
   The Audit Followup and Technical Support Directorate, Office of the Assistant
   Inspector General for Auditing, DoD, prepared this report.

     David A. Brinkman
     Kenneth H. Stavenjord
     Chandra P. Sankhla
     Jamie A. Bobbio
